IN THE SUPREME COURT OF THE UNITED STATES

No.
Khue Nguyen, Plaintiff-Petitioner,
vs.
Estate of Thin Thi Ta, Hai Phu Nguyen as heir and husband; Thao Xuan Ta;

CERTIFICATE OF SERVICE

I, Khue Nguyen as petitioner, certify that, on January 7, 2021, three copies of the
Petition for a Writ of Certiorari in the above-captioned case were sent by United
States Postal Service’s First Class service, postal paid to the following counsel:
MAUREEN S. KERSEY, Karlseng, LeBanc et al, 19111 N Dallas Parkway Suite
120 Dallas, TX 75287, attorney for respondents.
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Khue Nguyen
Execution on: January 7, 2021

(3.

I
Clear/Reset

WELLS
FARGO

All-purpose Acknowledgment California
A notary public or other officer completing this certificate verifies only the identity
of the individual who signed the document to which this certificate is attached,
and not the truthfulness, accuracy, or validity of that document.
State of California
County of

On_LnLti

o
]Yfri4<ivij

before me, /Wi-

the officer),

ftAaU>

(here insert name and title of

vxjCW

personally appeared

who proved to me on the basis of satisfactory evidence to be the
person(s) whose name(s) is/are subscribed to the within instrument
and acknowledged to me that he/she/they executed the same
in his/her/their authorized capacity(ies), and that by his/her/their
signature(s) on the instrument the person(s), or the entity upon
behalf of which the person(s) acted, executed the instrument.

z

t

:

I certify under PENALTY OF PERJURY under the laws of the State
of California that the foregoing paragraph is true and correct.

N&fifysiir
WITNESS my hand
and official\seal,__

■w-..

Signature
For Bank Purposes Only

t_/

Description of Attached Document
Type or Title of Document
Document Date

C <s> T

1/.T/=H

Number of Pages

Signer(s) Other Than Named Above
Account Number (if applicable)

FO01-000DSG5350CA-01
DSG5350CA/595577 (Rev 04 - 09/20)

W

/ 5
cT/

